U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 20, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Zavian Munize Jordan v. United States, No. 20-256
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 28,
2020, and placed on the docket on September 1, 2020. The government’s response is now due,
after one extension, on November 2, 2020. We respectfully request, under Rule 30.4 of the Rules
of this Court, a further extension of time to and including December 3, 2020, within which to file
a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner consents to this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-0256
JORDAN, ZAVIAN MUNIZE
USA

DAVID DEBOLD
GIBSON, DUNN & CRUTCHER LLP
1050 CONNECTICUT AVENUE, NW
WASHINGTON, DC 20036-5306
202-955-8551
DDEBOLD@GIBSONDUNN.COM
MARCIA G. SHEIN
LAW FIRM OF SHEIN & BRANDENBURG
2392 NORTH DECATUR RD.
DECATUR, GA 30033
404-633-3797
MARCIA@MSHEINLAW.COM
TIFFANY R. WRIGHT
HOWARD UNIVERSITY SCHOOL OF LAW
2900 VAN NESS STREET, NW
WASHINGTON, DC 20008
202-806-8082
TIFFANY.WRIGHT@ORRICK.COM

